HHS/OIG-Audit-"Audit of Medicaid Payments for Oxygen Related Durable Medical Equipment and Supplies, Ohio Department of Job and Family Services, Columbus, Ohio" (A-05-00-00088)
Department of Health and Human Services
Office of Inspector General -- AUDIT
"Audit of Medicaid Payments for Oxygen Related Durable Medical Equipment
and Supplies, Ohio Department of Job and Family Services, Columbus, Ohio, (A-05-00-00088)"
September 28, 2001
Complete
Text of Report is available in PDF format (157 kb). Copies can also be obtained
by contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
This final letter report presents the results of our Audit of Medicaid Payments
for Oxygen Related Durable Medical Equipment and Supplies.  We found that
Medicaid providers in Ohio generally received reimbursements for oxygen related
items of durable medical equipment (DME) and supplies at rates that were lower
than the Medicare allowable amount.  Payments were generally acceptable.
During our audit period of January 1, 1998 through December 31, 1999, payments
charged to the Medicaid program, which exceeded Medicare payment levels, amounted
to only $1,711.  We are not recommending recovery but are recommending
that the State assure that the maximum allowable price for DME and supplies
be limited to an amount equal to or less than the Medicare allowable amount
for the same items.